EXHIBITS

1a
EXHIBIT 1

Text Reproduced from Original
U.S. Department of Justice
United States Attorney
Eastern District of New York
271 Cadman Plaza East
Brooklyn, New York 11201
October 26, 2020
By ECF
Catherine O’Hagan Wolfe
Clerk of Court
United States Court of Appeals for the Second
Circuit
Thurgood Marshall United States Courthouse
40 Centre Street
New York, New York 10007
Re: United States v. Mark Nordlicht
Appellate Docket No. 19-3209
Dear Ms. O’Hagan Wolfe:
The government submits this letter in
response to Defendant-Appellee Mark Nordlicht’s
letter pursuant to Rule 28(j), drawing the Court’s
attention to United States v. Archer, 18-3727 (2d
Cir.) (“Op.”).1
Quotations from Archer herein omit all internal
quotation marks, alterations and citations.
1

2a

Text Reproduced from Original
Archer confirms that the district court erred in
granting Nordlicht’s Rule 33 motion. It is frivolous to
assert, as Nordlicht does, that Archer permits a
district court to “weigh[] the evidence itself.” To the
contrary, in Archer, the Court reaffirmed the
principle that “a district court may not reweigh the
evidence and set aside the verdict simply because it
feels some other result would be more reasonable.”
(Op. 16 (emphasis added)). Indeed, this is the central
premise of the Court’s analysis. (Op. 22, 35, 39).
Nordlicht’s misinterpretation of Archer is effectively
a concession that the district court usurped the role
of the jury.
Nordlicht’s assertion, in the alternative, that
the case should be remanded so the district court can
“apply the correct standard” is equally baseless.
First, it has long been settled that district courts are
not permitted to substitute their view of the evidence
for the jury’s. (Gov’t Br. 87–93 (discussing United
States v. Sanchez, 969 F.2d 1409 (2d Cir. 1992)). The
district court’s failure to abide by this principle is
ground to reinstate the jury’s verdict, not to prolong
the injustice created by the error.
Moreover, remand would be futile. In Archer,
the Court explained that a district court has
discretion to grant a new trial only where “the
evidence was patently incredible or defied physical
realities, or where an evidentiary or instructional

3a

Text Reproduced from Original
error compromised the reliability of the verdict.” (Op.
16). But the district court rejected Nordlicht’s
argument, made in his Rule 29 motion, that one
witness’s testimony was “disingenuous,” and the
court declined to address Nordlicht’s perfunctory
claims of trial error. There is no principled basis
upon which the district court could identify a
purported “manifest injustice” that previously
escaped its attention. (Op. 14 (emphasis added)). The
verdict should be reinstated and the case remanded
for sentencing.
Respectfully submitted,
SETH D. DUCHARME
Acting United States Attorney
By:

/s/
Kevin Trowel
Lauren Howard Elbert
David Pitluck
Patrick Hein
Assistant U.S. Attorneys
(718) 254-7000

4a

Case 19-3209, Document 104, 10/26/2020, 2960651, Page1 of 2

U.S. Department of Justice
United States Attorney
Eastern District of New York

KMT:LHE/DCP/PTH
F. # 2016R00505

271 Cadman Plaza East
Brooklyn, New York 11201

October 26, 2020
By ECF
Catherine O’Hagan Wolfe
Clerk of Court
United States Court of Appeals for the Second Circuit
Thurgood Marshall United States Courthouse
40 Centre Street
New York, New York 10007
Re:

United States v. Mark Nordlicht
Appellate Docket No. 19-3209

Dear Ms. O’Hagan Wolfe:
The government submits this letter in response to Defendant-Appellee Mark
Nordlicht’s letter pursuant to Rule 28(j), drawing the Court’s attention to United States v.
Archer, 18-3727 (2d Cir.) (“Op.”). 1
Archer confirms that the district court erred in granting Nordlicht’s Rule 33
motion. It is frivolous to assert, as Nordlicht does, that Archer permits a district court to
“weigh[] the evidence itself.” To the contrary, in Archer, the Court reaffirmed the principle
that “a district court may not reweigh the evidence and set aside the verdict simply because it
feels some other result would be more reasonable.” (Op. 16 (emphasis added)). Indeed, this
is the central premise of the Court’s analysis. (Op. 22, 35, 39). Nordlicht’s
misinterpretation of Archer is effectively a concession that the district court usurped the role
of the jury.
Nordlicht’s assertion, in the alternative, that the case should be remanded so
the district court can “apply the correct standard” is equally baseless. First, it has long been
settled that district courts are not permitted to substitute their view of the evidence for the
jury’s. (Gov’t Br. 87–93 (discussing United States v. Sanchez, 969 F.2d 1409 (2d Cir.

1

and citations.

Quotations from Archer herein omit all internal quotation marks, alterations

5a

Case 19-3209, Document 104, 10/26/2020, 2960651, Page2 of 2

1992)). The district court’s failure to abide by this principle is ground to reinstate the jury’s
verdict, not to prolong the injustice created by the error.
Moreover, remand would be futile. In Archer, the Court explained that a
district court has discretion to grant a new trial only where “the evidence was patently
incredible or defied physical realities, or where an evidentiary or instructional error
compromised the reliability of the verdict.” (Op. 16). But the district court rejected
Nordlicht’s argument, made in his Rule 29 motion, that one witness’s testimony was
“disingenuous,” and the court declined to address Nordlicht’s perfunctory claims of trial
error. There is no principled basis upon which the district court could identify a purported
“manifest injustice” that previously escaped its attention. (Op. 14 (emphasis added)). The
verdict should be reinstated and the case remanded for sentencing.
Respectfully submitted,
SETH D. DUCHARME
Acting United States Attorney
By:

2

/s/
Kevin Trowel
Lauren Howard Elbert
David Pitluck
Patrick Hein
Assistant U.S. Attorneys
(718) 254-7000

Case 20-842, Document 110, 01/12/2021, 3012064, Page1 of 170
6a
EXHIBIT 2

20-842(L)

To Be Argued By:
DAVID E. NOVICK

United States Court of Appeals
FOR THE SECOND CIRCUIT
Docket Nos. 20-842(L), 20-1061(Con)
20-1084(Con)
_____
UNITED STATES OF AMERICA,
Plaintiff-Appellant-Cross Appellee,
-vsFREDERIC PIERUCCI, WILLIAM POMPONI,
Defendants,
LAWRENCE HOSKINS,
Defendant-Appellee-Cross Appellant.
_____
ON APPEAL FROM THE UNITED STATES DISTRICT
COURT FOR THE DISTRICT OF CONNECTICUT

RESPONSE AND REPLY BRIEF
FOR THE UNITED STATES OF AMERICA

JOHN H. DURHAM
United States Attorney
District of Connecticut

DAVID E. NOVICK
SANDRA S. GLOVER
Assistant U.S. Attorneys

DAVID P. BURNS
Acting Assistant Attorney General
DANIEL S. KAHN
Acting Chief
Fraud Section,
U.S. Department of Justice
LORINDA I. LARYEA
Assistant Chief
Fraud Section

Case 20-842, Document 110, 01/12/2021, 3012064, Page54 of 170
7a

was only working on International Network’s behalf, not API’s. Def. Br. 39-40. But the jury saw
evidence that Hoskins acted on API’s behalf in
many non-approval-related consultant matters.
Hoskins also claims that he could not be API’s
agent because his role was assigned by the corporation, not API. Def. Br. 38-39. But nothing in the
law dictates that an agent must be assigned his
role by the principal in the first instance, so long
as the agent agrees to act under the control of the
principal. Moreover, the jury need not have concluded that Hoskins’s role was, in fact, assigned
by the parent company. Rather, the jury could
have logically concluded that API was delegated
authority to initiate the agency relationship with
Hoskins. Either way, that determination is appropriately left to the jury.
3. The district court abused its discretion in conditionally granting a
new trial.
In its opening brief, the government argued
that the district court erred in conditionally
granting a new trial based solely on its conclusion
that there was insufficient evidence of Hoskins’s
agency, and without any indication of error in the
trial. Gov. Br. 64-66.
Since the government’s opening brief, this
Court has clarified the Rule 33 standard thus
making pellucidly clear that the district court’s
32

Case 20-842, Document 110, 01/12/2021, 3012064, Page55 of 170
8a

decision must be vacated. See United States v.
Archer, 977 F.3d 181 (2d Cir. 2020). In Archer,
this Court held that “a district court may not
grant a Rule 33 motion based on the weight of the
evidence alone unless the evidence preponderates
heavily against the verdict to such an extent that
it would be ‘manifest injustice’ to let the verdict
stand.” 977 F.3d at 188. The Court explained:
a district court may not reweigh the evidence and set aside the verdict simply because it feels some other result would be
more reasonable. To the contrary, absent a
situation in which the evidence was patently incredible or defied physical realities,
or where an evidentiary or instructional error compromised the reliability of the verdict, a district court must defer to the jury’s
resolution of conflicting evidence.
Id. at 188-189 (internal quotation marks, citations, and alterations omitted). Thus, the district
court must “defer to the jury’s resolution of the
weight of the evidence,” id. at 195 (citation omitted), and may not “elevate its own theory of the
evidence above the jury’s clear choice of a reasonable competing theory,” id. at 197.
By its own admission, the district court here
did exactly what this Court forbid in Archer, that
is, it re-weighed the evidence for itself and found
it lacking. GA773. The district court noted no “patently incredible” or reality-defying evidence, or
33

Case 20-842, Document 110, 01/12/2021, 3012064, Page56 of 170
9a

any “evidentiary or instructional error [that] compromised the reliability of the verdict.” Archer,
977 F.3d at 188. Instead, the court expressed its
“significant doubt” that the jury got the verdict
right. GA773. This is insufficient to support a new
trial order.
In his response, Hoskins pays lip service to the
“preponderates heavily” standard, but still offers
no “evidentiary or instructional error” that compromised the verdict. Archer, 977 F.3d at 188.
Hoskins in fact commends the district court for
correctly instructing the jury that the “undertaking consists of the acts or services which the agent
performs on behalf of the principal.” Def. Br. 44
(quoting GA559). Nor does Hoskins take issue on
appeal with the district court’s instruction that
“the government must prove that the defendant
was an agent of a domestic concern in connection
with the specific events related to the Tarahan
Project.” GA559.
Rather, Hoskins claims, Def. Br. 44-45, that
the Court should vacate the jury’s verdict because
of isolated arguments regarding the meaning of
“undertaking” by the government in closing argument to which Hoskins did not object and that,
when considered as a whole, followed the court’s
instructions. Indeed, the government closely
hewed to the court’s definition of undertaking,
identifying it as “the services that [Hoskins] was
providing on the Tarahan Project,” including
34

Case 20-842, Document 110, 01/12/2021, 3012064, Page57 of 170
10a

helping with “sales efforts” and helping to “identify consultants,” “vet and hire consultants,” and
“negotiate terms of payment.” GA582. Just as on
appeal, the government suggested the jury could
infer API’s control over those undertakings from
evidence of API’s instructions to Hoskins as well
as API’s overall control of Tarahan. GA582GA583. Hoskins, who did not object, merely accused the government of “impl[ying]” that the
“undertaking was the Tarahan Project,” and restated the district court’s definition. GA592GA593. In rebuttal, the government likewise restated the court’s undertaking instruction, arguing against Hoskins’s contention that organizational charts should guide the jury’s decision on
agency. GA609. In short, the government did not
misstate the legal standard for undertaking, but
even if it had, the “preponderates heavily” standard cannot be met by stray comments in closing
argument that were not objected to, that counsel
responded to, and where the government correctly articulated the district court’s instruction
in rebuttal.
B. The Court should decline amici’s attempt to rewrite the definition of
“agent.”
Both amici suggest that the Court should redefine “agent” to apply only to third-party, bribepaying intermediaries, and not to common-law
35

